i<

No.
3n tl)E Supreme Court of tfje (Huiteb States
Mark Anthony Jenkins,
Petitioner,
v.
TIMOTHY O’ROURKE, Jefferson Parish Assistant District Attorney, Jefferson
Parish Juvenile Court; ROBERT M, MURPHY, Former Judge of the Louisiana
Fifth Circuit Court of Appeal; KRISTYL TREADAWAY; BARRON
BURMASTER, Judge
Respondents.
On Petition for Writ of Certiorari to the United States Court of Appeals for the
Fifth Circuit
PETITION FOR WRIT OF CERTIORARI

Mark Anthony Jenkins, pro se
3303 Hwy. 1 South
Donaldsonville. Louisiana 70346
P.O. Box 1402
504-610-8147
July 17, 2020

RECEIVED
JU1 22 20M

aEMS"*4®-

QUESTIONS PRESENTED
The federal district and circuit courts failed to conduct a de novo review and
incorrectly denied jurisdiction to this 42 U.S.C.* sec. 1983 lawsuit. It complains of the
conspiracy of a state appellate judge to protect the Department of Child and Family
Services, and the ADA representing it in juvenile court, from liability for negligence or
fraud. The appellate judge was alerted to the trial set in juvenile court against DCFS
and the payee, and he directed payee’s attorney and the juvenile court judge to
pretend that the district court had already decided the issue. The judge refused to
rule, and the attorney presented the issue to the court of appeal on a writ application
due to be filed from a unrelated district court judgment.
1. Whether the federal fifth circuit erred in not reviewing de novo this
independent action and in dismissing it under the Rooker-Feldman doctrine?
2. Whether the federal courts should have found the 2015 state appellate-court
judgment was made without subject matter jurisdiction, and is void ah initio) and by a
conspiracy to prevent a stipulation in juvenile court from being considered in deciding
the legal paternity issue.
3. Whether the Louisiana Fifth Circuit’s 2017 affirmation of the granting of
exceptions of no cause of action and res judicata and dismissal with prejudice of the
petition to nullify the 2015 judgment bars this complaint from federal district court
jurisdiction under the Rooker-Feldman doctrine: and whether the void ah initio
exception to Rooker Feldman is necessary and proper?

I

ii
PARTIES TO THE PROCEEDINGS
All parties to the proceedings are listed in the caption.
RULE 14.1 (iiO List
The proceedings in state trial, appellate, and supreme courts, and in federal
district and circuit courts identified below are directly related to the above'captioned
case.
State ofLouisiana Dept, of Children & Family Services, In the Interest ofMark
Jenkins Jr. v. Mark Jenkins Sr., Docket No. 2003-NS-1371, Jefferson Parish Juvenile
Court, Order in Minutes of July 7, 2014.
State ofLouisiana Dept, of Children & Family Services In the Interest ofMark
Jenkins Jr. v. Mark Jenkins Sr., Docket No. 2003'NS'1371, Jefferson Parish Juvenile
Court, Minutes of September 15, 2014.
Mark Anthony Jenkins Sr. v. Latasha Jackson, No. 7.11*419, 24th judicial District
Court for the Parish of Jefferson, State ofLouisiana, Judgment signed on Feb. 4, 2015.
State ofLouisiana Dept, of Children & Family Services In the Interest ofMark
Jenkins Jr. v. Mark Jenkins Sr., Docket No. 2003-NS-1371, Jefferson Parish Juvenile
Court, State ofLouisiana, Minutes of April 27, 2015.
Mark Anthony Jenkins Sr. v. Latasha Jackson, No. 15-CA* 293, Fifth Circuit Court
of Appeal, State ofLouisiana, Order of May 26, 2015.
Mark Anthony Jenkins v. Latasha Jackson, No. 2015'CA 399, Fifth Circuit Court
of Appeal, State ofLouisiana, Disposition handed down on July 31, 2015.

Ill

Mark Anthony Jenkins v. Latasha Jackson, No. 2015'CA-399, Fifth Circuit Court
of Appeal, State of Louisiana! rehearing denied Sept. 2, 2015.
Mark Anthony Jenkins, Sr. v. Latasha Jackson, No. 2015*CJ*1622, Supreme Court
of the State of Louisiana, denied writ of certiorari, with one dissent, Sept. 4, 2015.
Mark Anthony Jenkins Sr. v. Latasha Jackson, No. 711*419, 24th Judicial District
Court, State of Louisiana, denied motion to rebut finding of a judicial confession,
judgment signed Feb.l, 2016.
Mark Anthony Jenkins Sr. v. Latasha Jackson, No.'711-419, 24th Judicial District
Court, judgment on May 24, 2016! amended to add dismissal of petition Nov. 7, 2016.
Mark Anthony Jenkins, Sr. v. Latasha. Jackson, No. 16-CA-482, Fifth Circuit Court
of Appeal, State of Louisiana, affirmed dismissal of petition to nullify, Feb. 22, 2017.
Mark Anthony Jenkins, Sr. v. Latasha Jackson, No. 16*CA*482, Fifth Circuit Court
of Appeal, State of Louisiana, denied request for rehearing March 22, 2017.
Mark Anthony Jenkins, Sr. v. Latasha Jackson, No. 2017-C-0652, Supreme Court
of the State of Louisiana, denied writ ofcertiorari with “one who would grant,” Sept. 6,
2017.
Mark Anthony Jenkins v. Robert M. Murphy et al., United States District Court,
Eastern District of Louisiana, Civil Action No. 2*18*cv*3l22, dismissed complaint with
prejudice Nov, 27, 2018.
Mark Anthony Jenkins v. Robert M. Murphy et al., Civil Action No. 2*18*3122, U.
S. District Court, Eastern District of Louisiana, denied new trial, Jan. 14, 2019.

IV

Mark Anthony Jenkins v. Timothy O’Rourke, Jefferson Parish Assistant District
Attorney, Jefferson Parish Juvenile Court, et al, United States Court of Appeals for
the Fifth Circuit, No. 19*30112, affirmed district court, Jan. 10, 2020, designated “not
to be reported.” .
Mark Anthony Jenkins v. Timothy O’Rourke, Jefferson Parish Assistant District
Attorney, Jefferson Parish Juvenile Court, etal, United States Court of Appeals for
the Fifth Circuit, No. 19*30112, denied rehearing en banc without poll, Feb. 21, 2020.
TABLE OF CONTENTS
QUESTIONS PRESENTED
LIST OF PARTIES
RULE 14. l(iii) LIST,

i
li

ii to*iv

TABLE OF CONTENTS

iv to v

APPENDIX

v to ix

TABLE OF AUTHORITIES

ix*to xi

OPINIONS BELOW

l*to 2

JURISDICTION

2 to 3

CONSTITUTIONAL PROVISIONS AND STATUTES

3*to 4

STATEMENT OF THE CASE

4 to* 13

REASONS FOR GRANTING WRIT
I. If the federal courts had reviewed this 42 U.S.C, Sec. 1983 complaint de novo, it
would have recognized it is an independent action alleging conspiracy to deny Mark

V

Anthony Jenkins the right to atrial, and corruption of the judicial process; and
the fact that in the course of that conspiracy the state appellate court made a void
ab infto judgment in 2015;, and in 2017 another judgment tried to ratify the
earlier judgment, does not bar this action from federal district court
A, The Rooker-Feldman doctrine and the void ab initio exception,,.

13 to-24
...14 to 19

B, If the federal courts had reviewed the 2015 state court judgment de novo,
they would have found that the cause of the denial of due process complained
of by Mark Anthony Jenkins was that the judgment was made without subject
matter jurisdiction and in the absence of his evidence

19 to-22

C. If the federal courts had reviewed the 2017 judgment de novo to determine
if it blocked federal jurisdiction, it would have found that it was not the cause
of the injury complained of by Mark Anthony Jenkins, and therefore does not
bar this complaint from federal court,

22 to*24

II. The void ab initio exception to the Rooker-Feldman doctrine is proper and
necessary to give access to federal district court for a 42 U.S.C.: Sec. 1983 action
requesting damages and nullification of the state-court judgment, when the state
supreme court denied writ of certiorari.

24 to-27
.v to-ix

APPENDIX....,
A. Judgments on Review
Appendix Al_United States Court of Appeal for the Fifth Circuit,
Opinion of Jan. 10, 2020

l.to-3a

VI

Appendix A2_U. S. District Court for the Eastern District
4 to 16a

of Louisiana, Order & Reasons, Nov. 27, 2018,
B. State Cburt Judgments
Appendix Bl__ Jefferson Parish Juvenile Court,

17a

Minutes of July 7, 2014, sealed
Appendix B2__Jefferson Parish Juvenile Court,

,..,18a

Minutes of the September 15, 2014, sealed ...........
Appendix B3_24th Judicial District Court, State of
Louisiana, Judgment of February 4, 2015—.........

.19 to 20a

Appendix B4_Jefferson Parish Juvenile Court,
Minutes of April 27,2015. sealed ................................

21a

Appendix B5_ Louisiana Fifth Circuit, Order of May 26, 2015

.22 to 23a

Appendix B6__Jefferson Parish Juvenile Court,

24a

Louisiana, Minutes of June 15, 2015, sealed..... .......
Appendix B7__Louisiana Fifth Circuit, Disposition, July 31,

25-to-30a

2015
Appendix B8

24th Judicial District Court, Louisiana
31a

Judgment, February 1, 2016............................................. .
Appendix B9__ 24th Judicial District Court for the State of Louisiana
Judgment of May 24, 2016....... ...............................
Appendix B10_Louisiana Fifth Circuit, Order, Nov. 1, 2016

...32a
33 to-34a

Vll

Appendix Bll_24th Judicial District Court, State of Louisiana,
Amended Judgment, Nov. 7, 2016

.'35 a

C. Orders Denying Rehearing
Appendix Cl__ U. S. Court of Appeals for the Fifth Circuit denied
en banc rehearing. February 21, 2020............................. •

.36 to-37a

Appendix C2_ U. S. District Court for the Eastern District of
Louisiana, January 15, 2019, denied new trial—...........

38 to-40a

Appendix C3_Louisiana Fifth Circuit, rehearing denied
September 2, 2015

41a

Appendix C4_Louisiana Supreme Court, writ of certiorari
denied w. Dissent on September 4, 2015

42 to-43a

Appendix C5_Louisiana Fifth Circuit, rehearing denied March 2,
44a

2017
Appendix C6_Louisiana Supreme Court, writ of certiorari
denied w. J. Hughes “would grant” September 6, 2017

45a
46 to-47a

D. Mandate
E. Pleadings That Raised the Issue
Appendix El_excerpts from Application for Rehearing, Aug. 14,

48 to 49a

2015.
Appendix E2

excerpts from Application for Writ of Certiorari,

August 28, 2015

50 to-53a

vm
Appendix E3__excerpts from Petition to Nullify, March 10;
54a

2016,
Appendix E4_Request for Reconsideration March 9, 2017.........

55 to 56a

Appendix E5 Application for Writ of Certiorari, April 20, 2017

.57-to 60a

F. Other Essential Material
Appendix FI__excerpt from Memo of July 9, 2012.....................-

61a

Appendix F2__Jenkins’ Rule to Show Cause, Oct. 17, 2014-----

62 to-65a

Appendix F3_.Excerpt from Exception of Prescription, Nov. 20, 2014

66a

Appendix F4_Motion to Amend and excerpt from Third
Amendment to petition in 24th Judicial District Court ....67-to 70a
Appendix F5_ excerpts of transcript of June 15, 2015
hearing in Juvenile Court, sealed

71to 73a

Appendix F6_ Excerpt from Jackson’s Application for Supervisory Writ,
June 23, 2015...................... .................................

74 to 75a

Appendix F7_Jenkins’ Brief in Opposition to Writ
Application, June 30, 2015 (excerpt)................ -

76 to77a

Appendix F8_ excerpt from transcript of May 16, 2016 on exceptions
to petition to nullify......................

78-to 81a

Appendix F9__Fourteenth Amendment

82a

42U.S.C.:sec. 1983 .......... .

82 to 83a

IX

84a

La. C.C. Art. 203

TABLE OF AUTHORITIES
CONSTITUTION AND STATUTES
Fourteenth Amendment

13, 20

28 U.S.C.: 1257(a)

14, 15

28 U.S.C.: § 1738

16

42 U.S.C.: § 1983.

12,13

OTHER SOUCES
Federalist No. 51, Jams Madison...................................

27

Restatement (Second) of Judgments § 70 cmt. a (1982)

.27

FEDERAL CASES
Adams v. Mcllhany, 764 F.2d 294, (5* Cir.1985), cert.denied,
474 U.S. 1101, 106 S.Ct.883, 88 L.Ed.2d 918 (1986)........

27

Baldwin v. Hale, 68 U.S. (l Wall.) 223, 17 L.Ed. 531(1864)........

20

Burciaga v. Deutsche Bank Natl Trust, 871 F.3d 80,
(5th Cir, 2017)..........................................................................
Buckley v. Valeo, 434U.S.1, 122-123 (1976)............................ .

16, 19, 26
27

District of Columbia Court ofAppeals v. Feldman et al,
460 U.S. 462, 103 S.Ct. 1303, 75 L.Ed.2d 206, 1983).........
Exxon Mobil Corp. v. Saudi Basic Indus. Corp., 544 U.S. at 284,

16

15, 16, 17, 18

125 S.Ct. 1517, 161 L.Ed 454 (2005)
x

GASH Assoc, v. Village ofRosemont, Ill., 995 F.2d 726,728 (7th Cir. 1993)

17

Gersh, 137 Ill. 2d, Ill Dec 767, 553 N.E. .2d 282.............................................

28

Great Western Mining & Mineral Company v. Fox Rothschild,
18

LLP, 615 F.3d 159 (3rd c*- 2010)
.: .

.

20

Green v. Lindsey, 456 U.S.444, 1102.S.Ct 1874, 72 L.Ed 246 (1982)........

Harlow v. Fitzgerald, 457 U.S. 800; 73 L,Ed.2d 396; 102 S.Ct. 2727 (1982)........... ..27
Hoblock v. Albany County Board of Election, 422 F.3d 77, 87*88.

.....23, 24

In re Lake, 202 B.R. 751,758 (B.A.P. 9th Cir. 1996)... ...................

19

In re James, 940 F.2d 46, (3rd Cir. 1991).........................................

19

Kovadc v. Cuy. County Dep’t of Children and Family
Services, 606 F.3d 301,308 (6th Cir.2010).............................

15

Maine v. Thiboutot, 448 U.S. 1,? 1100 S.Ct. 2502, 2504,
65 L.Ed.2d 555 (1980)............................................... ..............

14

Mullane v. Central Hanover Bank & Trust, 339 U.S. 306;
70 S.Ct. 652, 94 L.Ed. 865,873 (1950)...... .................... ........

20

Noel v. Hall, 341 F3d 1148...................................................

17

Norton v. Shelby County, 118 U.S.425, 6L.Ed.178 (1886)

17,*28

Parsons Steel, Inc. v. First Alabama Bank, 474 U.S. 518.

17

Perlstein v. Wolk, 844 N.E.2d 923, 218 I11.2d 48, 300 Ill. Dec. 480 (111.2006)

28

Rooker v. Fid. Trust Co., 263 U.S. 413, 44 S.Ct. 149, 68 L.Ed. 362 (1923)....

16

Target Media Partners v. Specialty Marketing Corp., 881 F.3d 1279
(11th Cir. 2018)............................................................................
Truong v. Bank ofAmerica, N.A., 717 F.3rd.377 (5th Cir., 2013).........

11, 16, 17
12

LOUISIANA CONSTITUTION
Art. 5, §§ 10 and 16...

.21

LOUISIANA CASES
Church Point Wholesale Beverage Co., Inc. v. Tarver, 614 So.2d 698. (La.1993)..........21
Jean Boudreaux et al. v. The State ofLouisiana, DTD,
La. LEXIS 177, 815 So.2d 7, (La. 02/26/02).....................,................

,21

Jenkins v. Jackson, 216 So.3d 1082, (5th Cir. 2017)...................................

8, 23, 24, 25

League Central Credit Union v. Gagliano, 261 So.2d 715 (La.App., 972)

25

Woolley v. Lucksinger, 14 So.3d 311, (La. 2008).........................................

20, 21

LOUISIANA STATUTES

La. C.C.P. 1841,

16

La. C.C.P. Art. 2002

20-21

La. C.C.P. Art 2005,

.22

La. R.S. 13: 4231

17

La. C.C. art. 2005

22

1
Mark Anthony Jenkins respectfully petitions fora writ of certiorari to United
States Court of Appeals for the Fifth Circuit in this case.
OPINIONS BELOW
The United States Fifth Circuit, in an unpublished Opinion of January 10, 2020
(App. A1 at l-3a), affirmed the November 27, 2018 Order & Reasons of the U. S.
District Court for the Eastern District of Louisiana, (App. A2 at 4-16a), and the denial
of a Request for a New Trial denied (January 14, 2019.) (App. C2 at 40-42a). The Fifth
Circuit then denied a request for rehearing en banc on February 21, 2020, treating it
as a Petition for Panel Rehearing (App. Cl at 38*39a). As a result, Jenkins’s 42 U.S.C.:
§1983 Complaint was dismissed with prejudice.
The following are relevant opinions of the courts in chronological order.
(App. Bl, at 17a sealed) Minutes of July 7, 2014 in Juvenile court show the court
ordered the Department of Child and Family Services (DCFS) to produce all
acknowledgments it had for Jenkins.
(App. B2 at 18a sealed) Minutes of September 14, 2014. Juvenile Court: the ADA
stated that DCFS had no authentic act by Mark Jenkins, but his statement was not
reported in the minutes.
(B3 at 19-20a) Judgment of February 4, 2015 of 24th JDC, State of Louisiana
denied an exception of prescription to amending the birth certificate! admitted
the paternity test results, and ruled that Jenkins was not the father of Jacksons son.

2

(App. B4, at 21 sealed) Juvenile Court Minutes of April 27, 2015: attorney Kristyl
Treadaway stipulated that there was no authentic act of acknowledgment by Jenkins,
and the court set a hearing on legal paternity for June 15, 2015.
(App. B5 at 22- 23a) May 26, 2015 Order of Louisiana Fifth Circuit Court of Appeal
denied Jackson’s appeal but gave her time to file a writ application.
(App. B6 at 24a sealed) Juvenile court Minutes of June 15, 2015' the court refused
to rule on legal paternity; claimed the district court had ruled on legal paternity and
that the issue would be decided by the court of appeal.
(App. B7 at 25- 30a) Disposition of July 31, 2015: the La. Fifth Circuit ruled that
Jenkins judicially confessed to signing an authentic act of acknowledgment.
(App. B8 at 31a) February 1, 2016 judgment of 24th Judicial District Court:
denied a motion to rebut the ruling on legal paternity by the fifth circuit.
(App . B9 at 32a) May 24, 2016 judgment of the 24th JDC granted exceptions of no
cause of action and res judicata to the Petition to Nullify.
(App. B10 at 33*34) Order of La. Fifth Circuit, 11/1/16 to amend judgment.
(App. Bll at 35a). Amended Judgment of 24th JDC, November, 7, 2016 added
“dismissed with prejudice” to the Judgment of May 24, 2016.
Jenkins v. Jackson, 216 So.3d 1082, (5th Cir. 2017) affirmed the district court
judgment of May 24, 2016.
JURISDICTION
The Opinion of the fifth circuit court of appeals (App. A1 at l*3a) was

3
entered on January 10, 2020. A timely petition for rehearing en banc was denied on
February 21, 2020 (App. Cl at 36*37a). The jurisdiction of this Court is invoked under
28 U.S.C. § 1254(1).
STATUTORY AND CONSTITUTIONAL PROVISIONS
Constitution of the United States, Amendment XIV
Section 1. All persons born or naturalized in the United States and subject to
the jurisdiction thereof, are citizens of the United States and of the State wherein
they reside. No State shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States! nor shall any State deprive
any person of life, liberty, or property, without due process of law! nor deny to any
person within its jurisdiction the equal protection of the laws.
Section 5. The Congress shall have power to enforce, by appropriate legislation,
the provisions of this article.
Title 42 United States Code §1983. Civil action for deprivation of rights
Every person who, under color of any statute, ordinance, regulation, custom, or
usage, of any State or Territory or the District of Columbia, subjects, or causes to be
subjected, any citizen of the United States or other person within the jurisdiction
thereof to the deprivation of any rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the party injured in an action at law, suit in
equity, or other proper proceeding for redress, except that in any action brought
against a judicial officer for an act or omission taken in such officer’s judicial

4
capacity, injunctive relief shall not be granted unless a declaratory decree was
violated or declaratory decree I’elief was unavailable. For the purposes of this
section any Act of Congress applicable exclusively to the District of Columbia shall
be considered to be a statute of the District of Columbia.
STATEMENT OF THE CASE
Petitioner Mark Anthony Jenkins and Latasha Jackson were not married
when her son was conceived and born in 1997. He signed the birth certificate
believing he was the biological father. Under Louisiana law at that time, neither
their subsequent marriage nor his signing of the birth certificate made him the
legal father. Only an authentic act of acknowledgment could have made Jenkins the
legal father. (App. F9 at 84). They divorced in 2003.
The Department of Child and Family Services (DCFS) obtained an order for him
to pay support based on a signed agreement. It did not establish legal or biological
paternity as the law required. A paternity test would have prevented DCFS from
obtaining agreement to pay support. Jenkins learned in May 2011 that he might not
be the father of Ms. Jackson’s son. He could not recall if he had signed any other
document at the hospital besides the birth certificate. The Department of Health
and Hospitals (DHH) produced a copy of the birth certificate and a separate
statement that an original acknowledgment was destroyed during Hurricane
Katrina. It did not give the form of that document. Undersigned counsel did not

5
realize at that time that the acknowledgment lost during Katrina was the original
of the birth certificate.
Jenkins’ petition, filed in district court, asked for revocation of “an
acknowledgment” with no identification of its form, a court-ordered paternity test,
and damages including repayment of child support from Ms. Jackson. (Complaint,
p. 5) In discovery, Ms. Jackson stated she had no authentic act, and DCFS, a
.necessary party, refused to answer discovery requests claiming the information was
“confidential.”
Despite having no proof of an authentic act of acknowledgment, Jackson filed
an exception of prescription to revocation of an authentic act of acknowledgment.
The prescriptive period had been enacted 11 years after Jackson s son was born.
The district court found prescription did not apply and ordered a paternity test. On
review, the court of appeal found the prescriptive period would apply, but affirmed
the right to a court-ordered paternity test. There was no ruling on whether there
was in fact an authentic act that would make him the legal father. Undersigned
counsel failed to file for writ of certiorari timely.
Paternity test results proved Jenkins was not the biological father. He then
filed to nullify the order for support in juvenile court. He learned that DCFS
received copies of every executed acknowledgment from DHH. With that
information, juvenile court ordered DCFS to produce all acknowledgments by
Jenkins. (App. Blatl7a ). In the following hearing, the assistant district attorney

6
reported there was no authentic act bv Jenkins. However, that was not reported in
the minutes. (App. B2 at 18a). Petitioner requested a correction of the minutes to
report what the ADA had stated. The court set another hearing for that. In the
meantime, petitioner filed for a hearing in district court to obtain a ruling on
biological paternity. (App. F2 at 62-65 a) Jackson filed an exception of prescription
to correcting the birth certificate. (App. F3 at 66). District court denied the
exception; admitted the DNA Test Report, and ruled that petitioner Jenkins was
not the father. Judgment was signed on February 4, 2015. (App. B3 at 19-20).
Jackson gave notice of intent to appeal.
On April 27, 2015, in the juvenile court hearing to correct the minutes,
Jackson’s attorney, defendant attorney Treadaway, stipulated there was no
authentic act of acknowledgment by Jenkins. The court looked at the February 4,
2015 judgment of the district court and noted that the district court had decided
that Jenkins was not the biological father. Juvenile court then set a hearing to
decide legal paternity on June 15, 2015, as shown by the minutes. (App. B4 at 21).
Jackson filed an appeal from the district court’s judgment. Petitioner opposed
the appeal because the district court judgment on biological paternity did not go to
the merits of the petition for damages. On May 26, 2015, the fifth circuit dismissed
the appeal without prejudice and allowed 30 days to “file an appropriate writ
application seeking review of the interlocutory ruling contained in the February 4,
2015 judgment.” (App. B5 at 22). On May 28, 2015 petitioner Jenkins amended the

7
petition for damages in district court to name DCFS as a defendant and alleged
negligence or fraud in failing to establish either biological or legal paternity as the
basis for the support order. (App.F4 at 67‘70). He also added the claim of fraud in
the contract for support against Jackson.
Events of June 15, 2015 • June 23, 2015
When the hearing set in juvenile court to determine legal paternity started on
June 15, 2015, Treadaway claimed that the district court had decided that Jenkins
was not the legal father and that her appeal was pending. (App.F5 at 72a sealed)
The juvenile court judge would not listen to a correction of that statement. He
refused to rule on legal paternity (App. F5 at 72a sealed) and stated that the court
of appeal had to decide legal paternity. (App. B6 at 24a sealed). He mentioned that
he did not have the court record in front of him because the fifth circuit had
requested it. (Ann. F5 at 73a sealed). Treadaway filed her writ application from the
interlocutory ruling on June 23, 2015, and claimed that the district court had erred •
in ruling that Jenkins was not the legal father. (App. F at 75).
Petitioner’s opposition brief pointed to the district court record to prove that
only biological paternity was decided in the February 4, 2015 Judgment. (App. F7 at
77a). Petitioner Jenkins’ Rule to Show Cause that resulted in the Judgment of
February 4, 2015 did not raise the issue of legal paternity in district court. It asked
for rebuttal of the birth certificate acknowledgment, which is not in authentic form,
and. which creates a presumption of biological paternity, and not legal paternity.

8
The DNA test report presented into evidence rebutted the presumption that
petitioner Jenkins was the biological father. (App. F9 at 84a) The rule to show
cause had mentioned that in juvenile court an ADA had stated that there was no
authentic act of acknowledgment by Mark Jenkins. The July 31, 2015 appellate
court’s disposition “dismissCed) with prejudice what it called “respondent’s [Mark
Jenkins’s] claim to revoke or rebut his acknowledgment of legal paternity of M.J.,
Jr.“ (App.B7 at 30)
La. Civil .Code Article 203 (App.F9 at 84) shows that only an authentic act of
acknowledgment establishes legal paternity; registration of the birth certificate
creates a presumption of biological paternity. The Disposition deliberately confused
the two types of acknowledgment to pretend legal paternity was established by a
birth certificate. Since lack of subject matter jurisdiction is the basis for
nullification of Judge Murphy’s judgment, and was the cause of the denial of due
process, it is not necessary to explain all of the errors Judge Murphy deliberately
made in the disposition. It is enough that the ruling is void ab inito and was the
cause of the constitutional tort complained of in the federal complaint.
Request for reconsideration was denied, despite pointing out that the ruling
on legal paternity was beyond the scope of supervisory review. On application for
writ of certiorari, Louisiana Supreme Court Justice Hughes, in the only dissent to
denying writ, summed up the disposition:
Respectfully, the seemingly untimely review and
intervention of the Court of Appeal to decide an issue not

9
addressed in the trial court’s judgment, based on the concept of
a “judicial confession,” is clearly wrong given the DNA evidence,
the multiple pleadings and amendments thereto, the
stipulation of the parties, and the inability of DCFS to produce
an authentic act of acknowledgment. This is not justice but
judicial “gotcha.” These matters are best left to the trial court
for trial on the merits and development of a full record.”
The continued efforts of DCFS given the DNA results in the
record are also questionable. (App. C4 at 43 a).
On March 10, 2016, petitioner Jenkins filed a petition to nullify the ruling on
legal paternity for lack of jurisdiction and violation of due process. (App.E3 at 54)
Treadaway filed exceptions of no cause of action and res judicata. In the hearing on
May 16, 2016, the district court judge admitted he had not ruled on legal
paternity. (App F8 at 79) Despite that admission, the judge granted the exceptions
of res judicata and no cause of action. Significantly, he did so without giving any
reason. (App B9 at 32) On appeal, defendant Judge Murphy, who wrote the
judgment deciding legal paternity, was on the panel to review whether he had
jurisdiction to rule oh legal paternity. Before issuing a decision, the state appellate
Court ordered the district court to add “decretal language” to its judgment. (App.
BIO at 34) The district court added “dismissed with prejudice” (App. Bll at 35),
which added a ruling that was not requested or given. The appellate court
produced Jenkins v. Jackson, 16 So.3d 1082 (La. App. 2017). In it, the state
appellate court gave its version of supervisory review;
The district court has the jurisdiction to determine both the legal
and biological paternity of Mark, Jr. in its review of Mr. Jenkins’
petition to revoke. Because the 24th Judicial District court is a
district court within our circuit, this Court had the supervisory

10
jurisdiction to render determinations relevant to Mr. Jenkins’
petition, which included legal and biological paternity. (App. A2
at 12a) and (App. A1 at 2a) also Jenkins v. Jackson, 216 So.3d
1080, 1090.
The state appellate court did not pretend that legal paternity had been
decided in the district court. Its rendition of supervisory jurisdiction eliminated the
heed for a trial. Petitioner filed for reconsideration, arguing lack of subject matter
jurisdiction on supervisory review and denial of due process. (App. E4 at 56a) It
was denied. (App .C5 at 44a) Petitioner filed for writ of certiorari and argued the
same. (App. E5 at 58 to-60a). It was denied, with Justice Hughes alone as a “would
grant.” (App. C6 at 45a).
On February 9, 2017 petitioner’s attorney listened to a recording of a juvenile
court hearing in October, 2015. It was played from the technician’s office while
undersigned counsel sat in a separate office at the courthouse. It did not contain the
statement she remembered ADA O’Rourke made that indicated the purpose of
defendants’ actions was to protect DCFS. She encountered ADA O’Rourke as she
exited the room. That day court was not in session, and few people were in the
courthouse. She reported to the District Attorney’s Office that the recording she was
allowed to hear had been altered. The office reported their inquiry did not find the
system’s recording had been touched. (Complaint p.14 tol6, ROA 10).
On March 22, 2018 petitioner filed the 42 U.S.C.: §1983 complaint in federal
court. (ROA 10) For the first time he brought suit against the state actors and made

* *

V

11
the first allegations of conspiracy to deprive him of due process rights under the
U.S. Constitution. The complaint also alleged corruption of the judicial process
to obtain a favorable decision. (Complaint p.17) The actions of the conspirators
from June 15, 2015 through June 23, 2015, as given on pages 7 to-8 supra, were
recited. Court records proving the allegations were included in the Amendment to
the Complaint. Petitioner Jenkins requested damages and nullification of the void
ab initio ruling on legal paternity. He stated that the state district court suit was
still pending because claims against Jackson and DCFS for fraud had not yet been
decided. (Complaint p.19) Defendants filed exceptions of no cause of action,
prescription, judicial immunity, prosecutorial immunity, domestic relations
abstention, and lack of jurisdiction under the Rooker-Feldman doctrine.
The federal courts did not review the judgments.
The district court’s Order & Reasons of November 27, 2018 (A2 at 4-16a)
quoted Jenkins v, Jackson exclusively and did not mention the state court records.
There was no de novo review to ensure that the court was not dismissing a
compliant that was “properly within the cognizance of the federal courts.” Target
Target Media Partners v. Specialty Marketing Corp., 881 F.3d 1279,1279
Essentially, it ruled that the court of appeal had subject matter jurisdiction to rule
on legal paternity in 2015 because Jenkins v. Jackson claimed that it did. It did not
take notice that there was no ruling on legal paternity at trial. It accepted and
quoted as determinative the incorrect and self-serving version of supervisory

12
jurisdiction composed by the Louisiana Fifth Circuit. The federal district court
decided it was unnecessary to determine the circuit court’s position on the void ab
initio exception because the state appellate court had subject matter jurisdiction,
and it dismissed with prejudice all motions. Petitioner filed for a new trial on
December 21, 2018 arguing that the ruling was manifestly erroneous in finding the
state fifth circuit had subject matter jurisdiction. The motion pointed out that the
state appellate court had decided an issue that was never tried, and it pointed out
that the Jenkins version of jurisdiction dispensed with a trial before a review. The
Motion was denied on January 14, 2019 (App.C2 at 38-40a) for failure to state a
manifest error.”
Petitioner filed a Notice of Appeal on February 11, 2019. Review of a district
court’s subject matter jurisdiction is to be de novo. Truong v. Bank ofAmerica, N.A.,
111 F.3d 377, 381 (5th Cir. 2013). Instead, the circuit court also deferred entirely to
the state appellate court’s decision. The Opinion (A1 at l-3a) quoted only Jenkins v.
Jackson. The circuit court relied on the state appellate court’s version of
supervisory jurisdiction (App A1 at 2a) that dispensed with the need for a trial
before the appellate court could review the issue.
The Circuit court listed the Exxon Mobil requirements to make a state court
judgment immune from lower court review, but failed to recognize that the cause of
the injury to Jenkins’ right to due process of law was ruling without subject matter
jurisdiction, not the 2015 judgment itself. It quoted Jenkins v. Jackson but did not

13
notice that under Exxon Mobil, that judgment did not cause petitioner’s injury
either. As a result of those failures, the circuit court affirmed the dismissal with
prejudice of the 42 U.S.C.: sec. 1983 complaint and its independent actions for
conspiracy and corruption. A petition for rehearing en banc was filed on January 24,
2020, and denied on February 21, 2020. (App. Cl at 38‘39a) Mandate issued on
March 2, 2020. (App D at 48-49a)

REASONS FOR GRANTING WRITS
I. The 42 U.S.C. Sec. 1983 complaint is an independent action alleging
conspiracy to deny Mark Anthony Jenkins the right to a trial and corruption of the
judicial process. The fact that in the course of that conspiracy the state appellate
court made a void ab inito judgment in 2015; and in 2017 another judgment tried to
ratify the earlier judgment, does not bar this action from federal district court.
“... nor shall any State deprive any person of life, liberty, or property, without
due process of law...” Constitution of the United States, Amendment XIV, Section 1.
(App.F9 at 82) ...“The Congress shall have power to enforce, by appropriate
legislation, the provisions of this article.” Constitution of the United States,
Amendment XIV, Section 5. (App.F9 at 82). 42 U.S.C.: Sec.1983 was enacted to
enforce the Fourteenth Amendment. Maine v. Thiboutot, 448 U.S. 1,100 S.Ct. 2502,
2504, 65 L,Ed.2d 555 (1980). 42 U.S.C.: Sec.1983 states-'
Every person who, under color of any statute, ordinance,
regulation, custom, or usage, of any State or Territory or the

14
District of Columbia, subjects, or causes to be subjected, any citizen
of the United States or other person within the jurisdiction thereof
to the deprivation of any rights, privileges, or immunities secured
by the Constitution and laws, shall be liable to the party injured in
an action at law, suit in equity, or other proper proceeding for
redress. App. F9 at 82.
There is no doubt that state district court had not decided if there was an
authentic act of acknowledgment or whether petitioner Jenkins was the legal father
in its February 4, 2015 judgment. The state appellate court did not attempt to
dispute that fact in Jenkins v. Jenkins. Yet it claimed supervisory jurisdiction to
decide those issues on the writ application from the February 4, 2015 judgment.
The juvenile court judge himself set the legal paternity issue for a hearing on June
15, 2015. However, on the day of the trial he and opposing counsel pretended that
the district court had decided legal paternity. Opposing counsel, defendant
Treadaway, falsely presented the issue to the appellate court in her writ
application. Judge Murphy wrote the disposition on legal paternity as was planned.
This civil rights action for denial of a trial was dismissed with prejudice as
being barred from federal district court jurisdiction by the Rooker-Feldman
doctrine without consideration of the court records and de novo review of either of
the appellate court’s judgments. The following shows that the Rooker-Feldman
doctrine does not bar either state court ruling from review by the district court and
that dismissal of this action was improper.

15
A. Exxon Mobil pointed out that federal courts had been giving an overbroad
interpretation of the Rooker-Feldman doctrine, and as a result, cases that they had
a duty to hear were incorrectly dismissed.
The Rooker-Feldman doctrine arose from two court decisions interpreting 28
U,S.C.§ 1257(a); which was “designed to prohibit end-runs around state court
judgments that might occur when parties go to federal court essentially seeking
review of a state-court decision.” Kovacic v. Cuy. County Dept, of Children and
Family Services, 606 F.3d 301,308 (6th Cir. 2010). 28 U.S.C. - §1257(a) limits
review of final judgments or decrees by the highest court of the State to certiorari by
the United States Supreme Court. “Rooker-Feldman eliminates federal court
jurisdiction over those cases that are essentially an appeal by a state court loser
seeking to re litigate a claim that has already been decided in a state court.”
Target Media Partners at 1279. In Roolcer v. Fid. Trust Co., 263 U.S. 413, 44 S.Ct,
149, 68 LEd. 362 (1923), the Supreme Court affirmed denial of district court
jurisdiction to review a state court judgment. Exxon Mobil explained that in
Rooker, the state court had acted within its jurisdiction tit was not an action to
nullify the state court judgment. Exxon Mobil at 284. Also, in Rooker “the parties
in federal court were the same parties who had litigated in state court.” Target at
1285. That indicates preclusion in Rooker that does not pertain to Mr. Jenkins' case.
In D. C Court ofAppeals v. Feldman, 460 U.S: 462, 103 S.Ct. 1303, 75 L.Ed.2d 206

16
(1983) the complaint essentially “invited federal courts of first instance to review
and reverse unfavorable state court judgments.” Exxon Mobil at 283. In Feldman,
there was no allegation that the state court judgment was void ab initio or obtained
by corruption as in this action.
While finality of the state court judgment is emphasized in the above, states
have different definitions of what is a final judgment. In Louisiana, the law
provides- “A judgment that determines the merits in whole or in part is a final
judgment.” La. C.C.P. art. 1841. As the jurisprudence on void ab initio judgments
will show below, a final judgment is not required for a void ab initio judgment to be
reviewable by federal court.
l) Exxon Mobil Corp. limited the Rooker-Feldman doctrine under state
preclusion law and four additional requirements..
Nor does § 1257 stop a district court from exercising subject. matter jurisdiction simply because a party attempts to litigate in
federal court a matter previously litigated in state court. If a federal
plaintiff “presentts] some independent claim, albeit one that denies
a legal conclusion that a state court has reached in a case to he was
a party. *•) there is jurisdiction and state law determines whether the
defendant prevails under principles of preclusion." GASH Assoc, v.
Rosemont, 995 F. 2d 726,728 (CA7 1993); accord Noel v. Hall, 341
F.3d 1148,1163-1164 (CA9 2003). Exxon Mobil at 293. (Emphasis
added.)
[A] suit may be brought in federal court, and the federal court cannot avoid
jurisdiction under RookerFeldman, so long as the federal claim that is raised is
independent of any claim raised in state court.” Target Media Partners at 1289.

17
Exxon Mobil explained that “Under 28 U.S.C.§1738, federal courts must “give
the same preclusive effect to a state-court judgment as another court of that State
would give. Parsons Steel, Inc. v. First Alabama Bank, 474 U S. 518, 523.
“Preclusion is not a jurisdictional matter. See Fed. Rule Civ. Proc. 8(c).” Exxon
Mobil at 293. Burciaga stated: “We generally do not apply Rooker~Feldmanto state
decisions that would not be given preclusive effect under doctrines of res judicata or
collateral estoppel.” M at 387. Under La. R.S. 13: 4231,

a valid and final

judgment is conclusive between the same parties.” Besides not ruling on the issue of
subject matter jurisdiction, as will be shown, the parties in Jenkins v. Jackson are
not the same as the parties to this lawsuit. Jenkins v. Jackson does not preclude a
ruling on subject matter jurisdiction in the lower federal courts in this case.
Exxon Mobil provided four requirements for Rooker Feldman to bar. federal
district court jurisdiction to review a state court judgment: "(l) The federal
plaintiff lost in state court; (2) the plaintiff “complaints] of injuries caused by [the]
state-court judgments”; (3) those judgments were rendered before the federal suit
was filed; and (4) the plaintiff is inviting the district court to review and reject the
state judgments.” Exxon Mobil at 281. “The second and the fourth requirements
are the key to determining whether a federal suit presents an independent, nOhbarred claim:” Great Western Mining & Mineral Company v. Fox Rothschild, LLP,
615 F.3d 159,166 (3rd Cir. 2010).
2) Jenkins’ independent claims

18
Petitioner Jenkins’ claims in this 42 U.S.C.: § 1983 action are conspiracy to
deny due process of law and corruption of the judicial process to obtain a favorable
judgment. Those claims are not the same as the claims in state court against
Latasha Jackson and DCFS for reimbursement of child support due to fraud. Also,
as events in state court proved, bringing a claim for conspiracy against the state
court judges and the ADA in state court would have been futile. This cause of action
only had a chance in federal court. The documented facts showing planning and
coordination among the defendants have been listed supra. In addition, statements
of attorney Treadaway and the juvenile court judge in the transcript of June 15,
2015 show they knew the appellate court would take up the issue without
jurisdiction, and they agreed to tell the same lie. Most revealing is the juvenile
court judge’s statement that he did not have the court record because the court of
appeals had “requested “it. That proves that a judge, obviously Judge Murphy, had
requested the record before the June 15, 2015 hearing to plan what had to be done
for him to decide the issue. (App F5 at 73a sealed)
More than a year after the 2015 judgment was rendered defendant ADA 0!
Rourke was still doing the work of the conspiracy, as described supra on page 9. He
had an altered recording of a juvenile court hearing prepared for my attorney to
hear and have transcribed.
3) The Void Ab Initio Exception

19
Jenkins’ argued that Rooker-Feldman did not apply to the 2015 judgment
because it is void ab initio. Under that exception to Rooker-Feldman a federal court
may review a case entered in a state court if the state court proceedings are a legal
nullity and void ab initio.” In re James, 940 F.2d 46, 52, (3d.Cir. 1991). “The
underlying concept is that “[a] state court judgment is subject to collateral attack if
the state court lacked jurisdiction over the subject matter or the parties, or the
judgment was procured through extrinsic fraud.” In re Lake, 202 B.R. 751,758
(B.A.P.9th Cir.1996). In B urciaga v. Deutsche Bank Nat’t Trust Co., 871 F.3d 380
(5th Cir. 2017) the federal fifth circuit adopted the void ab initio exception.
The Rooker-Feldman doctrine is inapplicable to Deutsche
Bank’s counterclaims for two, independent reasons. First, the
Vacating Order was not a final judgment.... Second, the
Vacating Order is void under Texas Law, and we have said the
Rooker-Feldman doctrine would likely not bar federal court
review of void state court judgments). Id. at 386.
According to Burciaga, if the state court ruling is void ab initio under state law, it
need not be a final judgment for it to be reviewable by the federal district court. .
B. It was not the 2015 judgment itself that caused the constitutional injury
complained of by petitioner Mark Anthony Jenkins, but the denial of the right to be
heard in trial court.
The court records on the 2015 ruling on legal paternity shew that there is no
question of fact or law that the 2015 ruling on legal paternity was made without
subject matter jurisdiction, and is void ab initio. When the state appellate court

20

took up and decided the issue it violated federal and state constitutions and
jurisprudence. The Fourteenth Amendment provides: “...nor shall any State deprive
any person of life, liberty, or property, without due process of law.” Due process
means that “(P)ersons whose rights may be affected by State action are entitled to
be heard, and in order that they may enjoy that right, they must First be notified.”
Baldwin v. Hale, 68 U.S. (l Wall.) 223, 17 L.Ed, 531(1864). The right to notice
means that:
(P)rior to an action which will affect an interest in life, liberty or
property protected by the Due Process Clause, a State must provide
notice reasonably calculated, under all circumstances, to apprise
interested parties of the pendency of the action and to afford them
an opportunity to present their objections. Mullane v. Central
Hanover Bank & Trust, 339 U.S. 306, 314; 70 S.Ct.652; 94 L.Ed.
865, 873 (1950); see also Green v. Lindsey, 456 U.S. 444,449-450;
102 S.Ct.1874; 72 L.Ed.249 (1982).
Louisiana law provides: “A final judgment shall be annulled if it is rendered:
(2) Against a defendant who has not been served with process as required by law
(3) By a court which does not have subject matter jurisdiction over the matter of the
suit,” La. C.C.P. art 2002. The Louisiana Supreme Court dealt with violation of the
right to notice by a court of appeal in Wooley v. Lucksinger, 3 So.3d 311, (La. 2008).
In that case, the trial court made a ruling on choice of law, and the parties agreed to
it. However, on appeal, and with no assignment of error regarding the choice of law
issue, the court of appeal re-decided the ruling. The Supreme Court stated:
Even had there been justification for the court of appeal’s re­
determination of the choice of law decision, the appellate court
committed error in failing to give the litigants notice of its sua sponte

21
determination or to provide the litigants with an opportunity to be
heard on the issue....The court of appeal’s failure to provide notice to
the parties was especially egregious. Wooley at 364-5
The Louisiana Constitution divided jurisdiction^ giving district courts
original jurisdiction (Art. 5§16): and courts of appeal, appellate and supervisory
jurisdiction. (Art. 5§10). “Jurisdiction cannot be conferred by consent of the
parties or waived! a judgment rendered by a court which has no jurisdiction over
the subject matter of the action or proceeding is void.” Jean Boudreaux et al. v.,The
State ofLouisiana, DTD, La. LEXIS 177, 815 So.2d 7,12 (La. 02/26/02). In Church
Point Wholesale Beverage Co., Inc. Tarver, 614 So.2d 698 (La. 1993), the Louisiana
Supreme Court ruled on whether it would decide issues not yet tried in conjunction
with a ruling on the constitutionality of a statute, as permitted by Article 5, § 5(F)
of Louisiana Constitution. The Court held- “We do not, however, interpret Article 5,
§ 5(F) to mean that we have appellate jurisdiction over all issues raised in the
plaintiffs petition but only those which have been ruled on by the trial court.” Id. at
701.
However, in spite of the clear law, the state appellate court, ruled on an issue
that had not been decided in the trial court. A supervisory writ correctly reporting
the trial court’s error and a trial on the issue that gave all parties the opportunity to
have their evidence on record provides notice and the right to be heard in the court
of appeal. If a party misrepresents the trial court’s judgment, the court of appeal
must refuse to take up the issue, and the attorney should face sanctions.

22
La. C.C.P. art 2005 requires that an action to nullify an appellate court’s
ruling can only succeed “if the ground for nullity did not appear in the record of
appeal or was not considered bv the appellate court.” In this case, the grounds for
nullity were on the face of the record and argued in the opposition brief and on
request for reconsideration. However, the state appellate court ignored its lack of
supervisory subject matter jurisdiction, and its judgment is "Void ab initio.
. Also, the void ab initio 2015 judgment is not protected from federal court
review by Rooker-Feldman under Exxon Mobil, which requires that the state court
judgment must itself be the cause of the injury complained of. In this case, it was
the lack of jurisdiction and usurpation of the issue that caused petitioner’s injury.
The 2015 judgment does not bar federal court jurisdiction of this action requesting
annulment. Also, federal court jurisdiction of this civil rights action is
not precluded under the Louisiana law as res judicata because none of the
defendants in this federal complaint were parties to the state court litigation, and
the issues of conspiracy and corruption were not presented in state court.
C. Exxon Mobil's causation requirement for Rooker-Feldman to apply shows
that Jenkins v. Jackson is also not protected from review .
The judgment in Jenkins v. Jackson was not the cause of the injury complained .
of in this civil rights action. Hoblock v. Albany County Board of Election, 422 F.3d
77,87-88 ( 2nd Cir. 2005) explained that a ruling that “simply ratified, acquiesced in,
or left unpunished by it” the constitutional injury inflicted by a prior ruling did not

23
cause the injury. It gave the example of a plaintiff in state court who lost in a
discrimination claim against his employer and brought the same suit in federal
court, “he will be seeking a decision from the federal court that denies the state
court’s conclusion that the employer is not liable, but he will not be alleging injury
from the state court judgment. Instead, he will be alleging injury based on the
employer’s discrimination.” When a litigant is not “complaining of an injury caused
by a state-court judgment,” it is an independent claim. Jenkins v. Jackson refused
to correct the injury caused by its 2015 ruling without subject matter jurisdiction.
Under Exxon Mobil, the requirement that the state court judgment itself caused the
constitutional injury to petitioner to protect the judgment from review is not met by
Jenkins v. Jackson.
Review shows that Jenkins v. Jackson ‘s dicta is not a ruling on whether the
state appellate court had subject matter jurisdiction to decide legal paternity. The
district court granted the exceptions of ho cause of action and res judicata without
giving a reason. (App B9 at 32a) The transcript of the 2016 hearing on the
exceptions (App F8 at 79a) shows that the district court judge admitted that he had
not ruled on legal paternity. He then immediately changed the subject to
prescription, and stated that the action to nullify had prescribed. He went on to
grant the exceptions without mentioning whether the court of appeal had subject
matter jurisdiction to decide legal paternity. (App.F8 at 81a) By not ruling oh.
whether the state appellate court had subject matter jurisdiction to decide legal

24
paternity, the district court deprived the court of appeal of the right to review the
subject matter jurisdiction issue. Jenkins v. Jackson’s defense of the court of
appeal’s jurisdiction in 2015 is dicta.
On page 1090, in its dicta five pages before it rendered its decree, Jenkins
stated: “We find that the trial court properly sustained Ms. Jackson’s exception of
no cause of action on the claim of lack of subject matter jurisdiction raised in Mr.
Jenkins’ petition for nullification” The decree itself on page 1095 made no mention
of subject matter jurisdiction.
Review also shows that Jenkins v. Jackson deliberately misrepresented the law
on supervisory jurisdiction to justify its 2015 ruling ab initio. It stated:
In the instant matter, this court reviewed supervisory writ
applications arising from Mr. Jenkins’ petition for revocation of
acknowledgment of paternity.... The district court had the
jurisdiction to determine both the legal and biological paternity of
Mark, Jr. in its review of Mr. Jenkins’ petition to revoke. Because
the 24th Judicial District court is a district court within our circuit,
this Court had the supervisory jurisdiction to render
determinations relevant to Mr. Jenkins’ petition, which included
legal and biological paternity of Mark, Jr . (App. A2 at 12 a) and
(App. A1 at 2a) Jenkins at 1090. Emphasis added.
The expression “arising from' the petition” refers to issues on an appeal; not
to issues on a supervisory writ from an interlocutory judgment. League Central
Credit Union v. Gagliano, 261 So.2d 715 (La. App. 1972), In the above statement,
the state appellate court actually claimed it had jurisdiction to decide any issue
related to the petition before a trial court ruled on it. The district court and circuit
court did not take notice of that misrepresentation.

25
II. The void ab initio exception to the Rooker-Feldman doctrine is proper and
necessary to give access to federal district court for a 42 U.S.C.: §1983 action
requesting damages and nullification of a state-court judgment, when the state
supreme court denied writ of certiorari.
The Rooker-Feldman doctrine by itself does not distinguish between state
court judgments and decrees that are valid and those that are void ab initio. That is .
why the void ab initio exception is needed to complement Rooker-Feldman. It would
give notice to state court judges that ruling without jurisdiction can make them
liable for damages under 42 U.S.C.:Sec.l983 in federal court. A litigant should have
recourse to federal lower court when the state courts will not void a judgment made
without subject matter jurisdiction.
There is a split in the circuits on the void ab initio exception to RookerFeldman. It applies to this complaint because the federal fifth circuit adopted it in
Burciaga. The fifth circuit’s position on the void ab initio was not clear before
Burciaga, when the Louisiana appellate judge decided legal paternity. But it is clear
now: “Rooker -Feldman does not preclude review of void state court judgments.” Id.
at 385.
Rooker-Feldman without the void ab initio exception can be misinterpreted to
protect from a 42 U.S.C.-' §1983 action, and thereby gives legal effect to a
constitutionally repugnant void ab initio ruling. Rooker-Feldman should be
narrowly interpreted, with special attention to the causation requirement, so as not

26
to thwart the purpose of 42 U.S.C. sec. 1983 that protects Fourteenth Amendment
rights. Petitioner’s case demonstrates that a powerful appellate judge can usurp
original jurisdiction and go uncorrected in state court. The void ab initio exception
removes “great protections to the most devious parties,” and a “powerful incentive
to use... fraudulent tactics in obtaining a judgment.” Restatement (Second) of
judgments § 70 cmt. a (1982). “The 42 U.S.C.- §1983 “action for damages offers the
only realistic avenue for vindication of constitutional guarantees.” Harlow v.
Fitzgerald\ 457 U.S. 800, 814, 73L.Ed 2d 396, 102 S.Ct. 2727, 2736. (1982). It
supplies “by opposite and rival interests the defect of better motives” upon which
our government was designed. Buckley v. Valeo, 434 U.S.l, 122-123 (1976) quoting
Federalist No. 51.
The void ab initio exception concurs with Exxon Mobil, judicial immunity,
and the concept of nullification. Judges are rightfully accorded judicial immunity
from every judicial act except ruling without subject matter jurisdiction. Adams v:
Mcllhany 764 F.2d 294,297 (5th Cir.1985), cert, denied, 474 U.S. 1101, 106
S.Ct.883,-88 L.Ed.2d 918(1986). Norton v. Shelby County, 118 U.S.425, 6 L.Ed.178
(1886), recognized that “An unconstitutional act is not a law; ...it is in legal
contemplation, as inoperative as though it "had never been passed.” Id. at 442.
Perlstein v. Wolk, 844 N.E.2d 923, 218 I11.2d 448, 300 Ill.Dec. 480 (111.2006) stated:
A constitutionally repugnant enactment suddenly cuts off rights
that are guaranteed to every citizen, ... perverts the duties owed to
those citizens. To hold that a judicial decision that declared a statute
unconstitutional is retroactive would forever prevent those injured

<■*

27
under the unconstitutional legislative act from receiving a remedy for
the deprivation of a guaranteed right.” Gersh, 135 Ill.2d at 397-98,
142 IH.Dec.767, 553 N.E.2d 281.
That also applies to a ruling that is void ab initio.
Wherefore, Petitioner, Mark Anthony Jenkins, respectfully requests that this
Honorable Court grant writ of certiorari.
Respectfully submitted,
Mark Anthony Jenkins, pro Se
3303 Hwy. 1 South
Donaldsonville. Louisiana 70346
P.O. Box 1402
504-610-8147

Drafted by Cecelia Farace Abadie , La. Bar
19874, 20 White Drive,, Hammond, Louisiana
70401, 985-542-7859, cfabadie@gmail.com.
This action to prescribe on July 19, 2020;
unable to obtain another counsel of record; Abadie
not admitted to bar due to pending disciplinary action
on a complaint by the defendant attorney
whom Abadie accused of collusion with the judges.

